   U.S. ELECTION ASSISTANCE COMMISSION 

        OFFICE OF INSPECTOR GENERAL






                       FINAL REPORT:
              U.S. ELECTION ASSISTANCE COMMISSION

     EVALUATION OF COMPLIANCE WITH THE REQUIREMENTS OF
     THE FEDERAL INFORMATION SECURITY MANAGEMENT ACT

                       FISCAL YEAR 2011




NO. I-PA-EAC-02-11
OCTOBER 2011
                        U.S. ELECTION ASSISTANCE COMMISSION


                                 OFFICE OF INSPECTOR GENERAL


                                1201 New York Ave. NW - Suite 300 

                                      Washington, DC 20005






MEMORANDUM


October 5, 2011


To:        U.S. Election Assistance Commission

From: 	    Curtis W. Crider
           Inspector General

Subject:   Final Report –U.S. Election Assistance Commission’s Compliance with the
           Requirements of the Federal Information Security Management Act (Assignment No.
           I-PA-EAC-02-11)

In accordance with the Federal Information Security Management Act (FISMA), the Office of
Inspector General (OIG) engaged Leon Snead & Co. P.C., an independent certified public
accounting firm, to conduct an audit of the U.S. Election Assistance Commission’s (EAC)
compliance with the OMB Circular A-130 and FISMA requirements. The audit included
assessing the EAC’s effort to develop, document, and implement an agency-wide program to
provide information security for the information and information systems that support the
operations and assets of the EAC.

Leon Snead & Co. found that the EAC was in substantial compliance with FISMA requirements.
EAC implemented actions to address prior year’s findings regarding Privacy Act requirements
and established sufficient policies and procedures relative to its IT security program.

The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3) requires
semiannual reporting to Congress on all reports issued, actions taken to implement
recommendations, and recommendations that have not been implemented. Therefore, this report
will be included in our next semiannual report to Congress.

If you have any questions regarding this report, please call me at (202) 566-3125.
U.S. Election Assistance Commission
       Compliance with the Requirements of


 the Federal Information Security Management Act



                  Fiscal Year 2011






                     Submitted By



               Leon Snead & Company, P.C.


  Certified Public Accountants & Management Consultants
LEON SNEAD                                                                                      Certified Public Accountants
&COMPAN~P.C.           ____________________________________________________        _______
                                                                         & Management Consultants   ~~




416 Hungerford Dlive, Suite 400
Rockville. Maryland 20850
301·738·8190
fax: 301·738·8210
leonsnead.companypc@erols.com




                                                                      September 23, 2011




            Mr. Curtis W. Crider 

            Inspector General 

            U.S. Election Assistance Commission 

            1440 New York Ave, N.W., Suite 203 

            Washington, DC 20005 


            Dear Mr. Crider:

            Enclosed is the final report on our audit of U.S. Election Assistance Commission's compliance
            with the Federal Information Security Management Act for fiscal year 2011.

            We appreciate the courtesies and cooperation provided by EAC personnel during the audit.




                                                              I - ~~AC=J1A.,rJ/ljJ7 jJC
                                                              ~nead & Company, P.C.
                                                    TABLE OF CONTENTS






                                                                                                                                            Page


Introduction......................................................................................................................................1



Objective, Scope and Methodology.................................................................................................1



Summary of Audit............................................................................................................................2



Attachment 1 – Status of Prior Year Findings .................................................................................3



Attachment 2 – Agency Response ...................................................................................................4






Leon Snead & Company, P.C.                                               i
Introduction

Leon Snead & Company, P.C. has completed an audit of EAC’s Information Technology (IT)
security program for fiscal year 2011. Title III of the E-Government Act, entitled the Federal
Information Security Management Act (FISMA) requires each Federal agency to develop,
document, and implement an agency-wide program to provide security for information and
information systems that support the operations and assets of the agency, including those systems
managed by another agency or contractor. FISMA, along with the Paperwork Reduction Act of
1995 and the Information Technology Management Reform Act of 1996, emphasize a risk-based
policy for cost-effective security. In support of and reinforcing this legislation, the Office of
Management and Budget (OMB) through Circular A-130, Management of Federal Information
Resources, Appendix III, Security of Federal Automated Information Resources, requires
executive agencies within the Federal government to:

    •		   Plan for security;
    •		   Ensure that appropriate officials are assigned security responsibility;
    •		   Periodically review the security controls in their information systems; and
    •		   Authorize system processing prior to operations and, periodically, thereafter.

The EAC is an independent, bipartisan agency created by the Help America Vote Act (HAVA)
to assist in the effective administration of Federal elections. In October 2002, Congress passed
HAVA to invest in election infrastructure and set forth a comprehensive program of funding,
guidance, and ongoing research. To foster those programs and to promote and enhance voting
for United States Citizens, HAVA established the EAC.

EAC’S mission is to assist in the effective administration of Federal elections. The agency is
charged with developing guidance to meet HAVA requirements, adopting voluntary voting
systems guidelines, and serving as a national clearinghouse of information about election
administration. EAC also accredits testing laboratories and certifies voting systems and audits
the use of HAVA funds.

Objective

The objective of our audit was to evaluate EAC’s compliance with OMB Circular A-130 and
FISMA requirements.

Scope and Methodology

To accomplish the objective, we reviewed EAC policies and procedures, and performed tests to
determine whether EAC:

    •		 policies and procedures were adequate to establish an agency-wide IT security program
        in accordance with OMB requirements.
    •		 personnel assessed the risk to operations and assets under their control, assigned a level
        of risk to the systems, tested and evaluated security controls and techniques, implemented



Leon Snead & Company, P.C.		                       1
        an up-to-date security plan for each major application and general support system, and
        performed certification and accreditation of the agency’s systems.
    •		 developed, documented and tested comprehensive contingency plans for the agency’s
        information systems.
    •		 provided security awareness training to all employees and contractors, and provided
        sufficient specialized training to key IT security personnel.
    •		 established a continuous monitoring program, including whether the agency monitored
        scanning results and corrected vulnerabilities, as necessary.
    •		 designed and implemented access controls effectively.
    •		 met OMB requirements for securing sensitive personal identifying information and
        Privacy Act requirements.

We conducted this audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives. Other criteria used in the audit included the
National Institute of Standards and Technology (NIST) guidance, and OMB Memoranda. The
audit was performed during the period April and September 2011.

Summary of Audit

Our audit found that the EAC was in substantial compliance with FISMA requirements.
Specifically, we noted that the EAC had established sufficient policies and procedures relating to
its IT security program to address identified risks; implemented actions to address prior concerns
relating to meeting Privacy Act requirements; established a continuous monitoring program that
substantially addressed all NIST requirements; provided annual security awareness training and
specialized training to its IT specialists; developed and tested a contingency plan; and had
established required access controls sufficient to meet identified risks.




Leon Snead & Company, P.C.		                    2
                                                                                               Attachment 1


                                    Status of Prior Year Findings


      Prior Year Condition                                     Current Status


      Contingency planning for EAC was not in full             EAC officials took action to correct this
      compliance with FISMA because the recently               problem.
      completed plan had not yet undergone testing.
      Develop and publish a “routine use” policy dealing       EAC officials took action to correct this
      with breach of security relating to personnel            problem.
      identifiable information data, including actions taken
      for individuals affected by the breach.
      Conduct privacy impact assessments for electronic        EAC analyzed its systems that contain
      information systems and collections and, in general,     personnel    identifiable information    and
      make them publicly available.                            published System of Record Notices in
                                                               2011, and determined that none of the
                                                               agency’s systems required a privacy impact
                                                               assessment to be issued. We concurred in this
                                                               determination.




Leon Snead & Company, P.C.                            3
                                                                       Attachment 2




                              u.s. Election Assistance Commission
                              Office of the Executive Director
                              1201 New York Ave. NW - Suite 300
                              Washington , DC 2005




Memorandum

                                                                 September 21 , 2011



To:          Arnie Garza
             Assistant Inspector General for Audits


F~           Tom Wilkey
                       

             Executive Director

Subject:     Draft Audit Report - U.S. Election Assistance Commission Audit of Compliance
             with the requirement of the Federal Information Security Management Act
             (FISMA) Fiscal year 2011 (Assignment No.I-PA-EAC-02-11)

             After reviewing the attached audit report and summary of the audit results of the
             FISMA Audit , management agrees with the audit result submitted by the auditors.

             As the audit report indicates, management took the necessary actions to address
             the findings that were found on the previous year audit report and we are now
             substantially in compliance with the FISMA requirements .

             We thank you and the auditors for courtesies and assistance that was extended
             to our staff during the audit.

             If you have any questions regarding our response , please do not hesitate to
             contact me at (202) 566-3109




             Copy to : Alice Miller, COO
                        Mohammed Maeruf,     cia
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
